WAIVER

SUPREME COURT OF THE UNITED STATES

s Case No, 20°433

supreme Court Case No.

Mark Anthony Jenkins _,, Timothy O'Rourke, et al
(Petitioner) (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check the appropriate boxes:
LJ Please enter my appearance as Counsel of Record for all respondents.

(=) There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondenti(s):

Judge Barron Burmaster

 

f=] 1am a member of the Bar of the Supreme Court of the United States.

 

QO , am not presently 2 a member of the Bar of this Court. Should a response be requested, the response

 

Jacqueline B. Wilson

 

(Type or print) Name

 

j=] Mr. Ms. Mrs. Miss
Louisiana Department of Justice, Office of the Attorney General

 

 

 

 

 

 

 

 

 

 

 

Firm.

Address 1885 North Third Street

City & State Baton Rouge, Louisiana oy 70802
Phone (225) 326-6300 Email wilsonj@ag.louisiana.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

cc: Mark Anthony Jenkins, Cecelia Abadie
